        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Special Report
The American Recovery and
Reinvestment Act at the Department
of Energy




OAS-RA-09-01                          March 2009
MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Special Report on "The American Recovery and
                         Reinvestment Act at the Department of Energy"

BACKGROUND

The American Recovery and Reinvestment Act of 2009 (Recovery Act) was signed into law
on February 17, 2009, as a way to jumpstart the U.S. economy, create or save millions of
jobs, spur technological advances in science and health, and invest in the Nation's energy
future. This national effort will require an unprecedented level of transparency and
accountability to ensure that U.S. citizens know where their tax dollars are going and how
they are being spent. As part of the Recovery Act, the Department of Energy will receive
more than $38 billion to support a number of science, energy, and environmental initiatives.
Additionally, the Department's authority to make or guarantee energy-related loans has
increased to about $127 billion. The Department plans to disburse the vast majority of the
funds it receives through grants, cooperative agreements, contracts, and other financial
instruments.

The supplemental funding provided to the Department of Energy under the Recovery Act
dwarfs the Department's annual budget of about $27 billion. The infusion of these funds
and the corresponding increase in effort required to ensure that they are properly
controlled and disbursed in a timely manner will, without doubt, strain existing resources.
It will also have an equally challenging impact on the inherent risks associated with
operating the Department's sizable portfolio of missions and activities and, this is
complicated by the fact that, in many respects, the Recovery Act requirements represent a
fundamental transformation of the Department's mission. If these challenges are to be
met successfully, all levels of the Department's structure and its many constituents,
including the existing contractor community; the national laboratory system; state and
local governments; community action groups and literally thousands of other contract,
grant, loan and cooperative agreement recipients throughout the Nation will have to
strengthen existing or design new controls to safeguard Recovery Act funds.

PROTECTING TAXPAYER INTERESTS

To aid the Department in this effort, the attached report informs the Department's
leadership of the perspective of the Office of Inspector General on the risks that it should
consider as stimulus activities progress. Our report is based on a body of work that has
been used, over time, by Department officials to improve operations and management
practices in a number of areas. Considered in today's light, our work should once again
                                              2

be useful in helping to avoid problems encountered in the past. To that end, this report
provides the Department with "lessons learned" and suggests approaches for reducing the
risks associated with the extraordinary level of Recovery Act funding. The report also
outlines ongoing and planned Office of Inspector General activities designed to help
ensure that the Recovery Act programs are well managed and that funds are protected
from waste, fraud and abuse. Specifically, in this report we have:

   •   Identified specific risks that we discovered during past reviews and investigations in
       areas such as fund accountability and reporting, grant and cooperative agreement
       execution, contract management, and the management of loan guarantee efforts;

   •   Suggested actions that should be considered during Recovery Act planning and
       program execution to help reduce the likelihood that historical problems will recur;

   •   Described the Department's initial efforts to identify risks and to develop strategies to
       help ensure that Recovery Act goals and objectives are satisfied; and,

   •   Outlined the Office of Inspector General's risk-based approach to oversight and
       planned means of satisfying our Recovery Act review and investigative
       responsibilities.

RISKS OF FRAUD AND OTHER ABUSES

As the Recovery Act implementation proceeds, all parties should recognize that the potential
risk of fraud increases dramatically when large blocks of funds are quickly disbursed. Our
experience in the investigative arena has demonstrated that even during periods of normal
operation, misuse of funds, submission of false or fictitious data, kickbacks and briberies,
and other related fraudulent activity occur with troubling frequency. In fact, the Office of
Inspector General, on average, has more than 200 fraud-related investigations open at any
given time. Since Fiscal Year 2004, these investigations have resulted in about 150 criminal
convictions and recoveries and fines in excess of $190 million, some of which involved task
force investigations into complex fraud schemes that crossed agency boundaries. This
history suggests that the Department's Recovery Act efforts to establish an effective set of
safeguards or internal controls to prevent fraudulent activity should be a priority.

OVERSIGHT STRATEGY

In carrying out our oversight responsibilities, the Office of Inspector General plans to initiate
real-time reviews and, where needed, rapid investigations of the Department's Recovery Act
activities. Our proactive strategy is designed to aid the Department in enhancing program
efficiencies and preventing or quickly detecting the misuse of funds. For instance, we have
already begun an aggressive effort to provide fraud awareness briefings throughout the
Department to alert program officials about potential schemes and acquaint them with the
investigative responsibilities of the Office of Inspector General. These briefings have proven
to be particularly useful to program officials and have, in a number of instances, facilitated
their ability to recognize fraud and bring those matters to our attention. We have also
coordinated our efforts with the Government Accountability Office (GAO) and plan to work
                                               3

with state and local oversight organizations to make the most efficient use of resources at all
levels of government. Under the Department's Cooperative Audit Strategy with management
and operating contractors, we recently issued supplemental planning guidance for the
contractors' internal auditors requesting that they incorporate Recovery Act objectives in
their annual audit plans.

We recognize that the Department has initiated a number of efforts to help ensure that it
achieves the transparency and accountability objectives of the Recovery Act. In particular,
the Department is actively involved in identifying program and activity-specific risks and has
begun to develop plans to address those risks. It has also started to update information
systems to provide accountability and transparency over Recovery Act expenditures and
performance results. In addition, the Department has requested program and project-level
operating plans from each of its major program elements detailing its risk mitigation
strategies, internal controls, performance measures, and methods for the collection and
reporting of data. Program officials also reported that they have reached out to potential
recipients of funds to stress the importance of meeting Recovery Act objectives. These
efforts, when complete, should help position the Department to satisfy its Recovery Act
responsibilities.

MANAGEMENT REACTION

In commenting on our report, management indicated that it had taken a number of corrective
actions to address specific problems identified in our prior reviews. In particular,
management noted that the GAO recently recognized progress made by the Department in
the areas of contract and project management and has narrowed the scope of this high-risk
area to focus on only two major programs. In addition, the Department established a
program to provide assistance to field sites for awarding and administering contracts as part
of its contract management improvement strategy. Management agreed to re-evaluate the
potential risks identified in our report at all sites in light of the significant additional funding
provided under the Recovery Act.

During these challenging times, we look forward to working with the Department to ensure
that goals and objectives of the Recovery Act are met and that the best interests of the
citizens of the United States are protected.

Attachment

cc: Office of the Deputy Secretary
    Administrator, National Nuclear Security Administration
    Office of the Under Secretary of Energy
    Acting Assistant Secretary for Environmental Management
    Acting Assistant Secretary for Fossil Energy
    Acting Assistant Secretary, Office of Electricity Delivery and Energy Reliability
    Principal Deputy Assistant Secretary, Office of Energy Efficiency and Renewable Energy
    Acting Director, Office of Science
    Chief of Staff
    Chief Financial Officer
    Director, Office of Management
SPECIAL REPORT ON THE AMERICAN RECOVERY AND
REINVESTMENT ACT AT THE DEPARTMENT OF ENERGY

TABLE OF
CONTENTS




Background and Introduction ...........................................................................................1

Identified Risk Areas ........................................................................................................3

Department of Energy Response to Recovery Act .........................................................10

Office of Inspector General Recovery Act Oversight Strategy ......................................11


Appendices

1. Office of Inspector General Reports by Risk Area....................................................15

2. Prior External Reports by Risk Area .........................................................................21
Recovery Act Program Design and Implementation Strategies

Background and        The American Recovery and Reinvestment Act of 2009
Introduction          (Recovery Act) was signed into law on February 17, 2009,
                      as a way to, among other things, jumpstart the U.S.
                      economy, create or save millions of jobs, spur
                      technological advances in science and health, and invest in
                      environmental protection activities. The Recovery Act will
                      require agencies to implement an unprecedented level of
                      transparency and accountability that will permit the
                      American people to determine how and for what purpose
                      their tax dollars are being spent. To assist Federal agencies
                      with carrying out their Recovery Act responsibilities, the
                      Office of Management and Budget (OMB) recently issued
                      guidance designed to meet crucial accountability objectives
                      regarding the distribution of funds, transparency of agency
                      efforts to the public, and achievement of program goals.

                      As part of the Recovery Act, the Department of Energy
                      (Department) was appropriated more than $38 billion to
                      support a number of major initiatives. Specifically, the
                      Offices of:

                         •   Energy Efficiency and Renewable Energy will
                             receive nearly $17 billion to support various
                             programs such as improving the energy efficiency
                             of low-income housing, conducting energy research
                             and development projects, and studying alternative
                             fuels for vehicles;
                         •   Chief Financial Officer will be provided with $6
                             billion as part of its loan program for new or
                             significantly improved energy production
                             technologies that avoid, reduce, or sequester air
                             pollutants and other greenhouse gases;
                         •   Environmental Management has been authorized
                             nearly $6 billion to clean up environmental
                             contamination resulting from Cold War
                             manufacturing activities;
                         •   Electricity Delivery and Energy Reliability will
                             have $4.5 billion available, most of which is
                             dedicated to support modernization of the Nation's
                             electrical grid;
                         •   Fossil Energy will receive $3.4 billion to support
                             research and development activities such as carbon
                             capture and storage; and,
                         •   Science is expected to be provided with $1.6 billion
                             to further enhance ongoing research efforts.


________________________________________________________________
Page 1                                   Background and Introduction
                      These funds will have significant impacts on existing
                      Departmental missions. For example, the additional
                      Recovery Act funds will increase the Department's ability
                      to make or guarantee loans up to approximately $127
                      billion.

                      Because of our day-to-day work evaluating program
                      operations, the Office of Inspector General (OIG) has a
                      unique insight into the challenges the Department faces in
                      its Recovery Act endeavors. As such, we have leveraged
                      our perspective to outline risks that the Department is likely
                      to confront as it works to finalize its stimulus activities.
                      The body of work on which this report is based has resulted
                      in incremental improvements in operations and
                      management practices (See Appendix 1). Our past work,
                      considered in today's light, is likely to be useful in helping
                      the Department avoid the problems that could cause
                      failures or adversely impact planned initiatives. To that
                      end, this report provides "lessons learned" and suggests
                      mitigation approaches that the Department should employ
                      to reduce the risks associated with managing the
                      unprecedented levels of Recovery Act funding.
                      Specifically, our report:

                         •   Identifies specific risks that we discovered during
                             past reviews and investigations in areas such as
                             fund accounting and reporting, grants and
                             cooperative agreements, contract management, and
                             loan guarantees;

                         •   Suggests actions that should be considered during
                             Recovery Act planning and program execution to
                             help reduce the likelihood that the same or similar
                             problems will recur;

                         •   Describes the Department's initial efforts to identify
                             risks and to develop strategies to help ensure that
                             Recovery Act goals and objectives are satisfied;
                             and,

                         •   Outlines the OIG's risk-based approach to oversight
                             and planned means of satisfying our Recovery Act
                             review and investigative responsibilities.




________________________________________________________________
Page 2                                   Background and Introduction
Identified Risk Areas   The Recovery Act will inject a significant amount of
                        funding into Department programs that must be expended
                        and managed over a short time-frame. In addition, the
                        requirements for agencies to implement unprecedented
                        levels of transparency and accountability will present
                        challenges that even the most well managed programs may
                        find daunting. Under these circumstances and based on
                        past experience, we believe that a number of activities
                        carried out by the Department need to be closely managed
                        to help ensure that they satisfy Recovery Act goals. These
                        areas include funding accountability and reporting,
                        awarding and monitoring of grants and cooperative
                        agreements, contract management, and management of loan
                        programs.

                                  Funding Accountability and Reporting

                        Maintaining complete transparency of accounting and
                        related reporting requirements are two key activities
                        necessary to meet the Recovery Act objectives. However,
                        the influx of significant funding presents new challenges
                        and risks that the Department will need to address.
                        Specifically, OMB Implementing Guidance directs
                        agencies not to co-mingle Recovery Act funds with other
                        appropriations, a mandate that will require the Department
                        to effectively track costs. Efforts such as this can be
                        challenging, as noted during our prior reviews of
                        Departmental accounting practices. In particular, we
                        identified Department facilities and sites that were unable
                        to reconcile differences between the costs reported in
                        financial systems and expenditure levels reported in project
                        documentation.

                        Programs designed to help ensure that reported
                        performance is complete, accurate, and transparent to the
                        public could also be at risk of not achieving desired
                        Recovery Act objectives. For example, we previously
                        reported that certain programs were unable to provide
                        complete and accurate information to demonstrate the
                        progress of their programs. Notably, program elements had
                        not reported performance information that was measurable,
                        meaningful or sufficient to gauge the progress of ongoing
                        initiatives. We noted in 2006 that the Department had not
                        established or collected meaningful performance metrics to
                        evaluate the cost-benefit of grants distributed through the
                        State Energy Program. Even when energy savings
                        performance data was submitted to program officials as
________________________________________________________________
Page 3                                          Identified Risk Areas
                       required, the Department had not acted to validate or
                       compare actual results to those planned. Investigations in
                       other program areas also revealed instances of fabrication
                       of data relating to the quality and progress of work
                       completed, including the submission of false testing
                       certifications and inaccurate information about compliance
                       with safety requirements.

                       To address the risk that program results may not be
                       properly supported and reported, management should:

                          •   Ensure that mechanisms are in place to accurately
                              account for funds as required by the Recovery Act;
                              and,

                          •   Define appropriate, quantifiable performance
                              metrics that measure the progress of programs
                              funded by the Recovery Act and validate the results
                              at intervals necessary to meet OMB reporting
                              requirements.

                       As stressed by the National Academy of Public
                       Administration in a recent report, such controls are critical
                       to establishing performance metrics that can serve as a
                       mechanism to monitor performance and ensure
                       accountability. Also, without adequate accounting of funds
                       and performance reporting that includes periodic validation
                       of results, taxpayers' confidence that Recovery Act projects
                       are meeting intended goals may be eroded.

                                       Awarding and Monitoring
                                   Grants and Cooperative Agreements

                       Grants and cooperative agreements are financial assistance
                       tools used by the Department to fund many of its research
                       and development activities that support advances in energy-
                       efficient technologies and enhance the Nation's economic,
                       environmental, and energy security. These financial
                       instruments are also the primary means for deploying funds
                       for scientific research to educational and other research
                       organizations. Based on preliminary plans, the Department
                       projects that it will disburse billions of dollars through
                       grants and cooperative agreements, many related to energy
                       efficiency, science, fossil energy, and electricity research
                       and development. While the use of grants and cooperative
                       agreements can be an effective way to fund various

________________________________________________________________
Page 4                                          Identified Risk Areas
                       initiatives, these types of financial assistance tools also
                       carry a number of demonstrated risks.

                       A prominent risk that we identified in the past is that
                       officials may not have always adequately focused on
                       ensuring that projects funded through cooperative
                       agreements were initially evaluated for financial and
                       business viability. For instance, our prior review of
                       selected energy-related cooperative agreements found that
                       the Department made an award to an entity for a major
                       research and development project even though the recipient
                       had been having financial and operational difficulties for
                       years. The recipient ultimately filed for bankruptcy and the
                       project did not meet its final objective. In that particular
                       example, we observed that each Federal project manager
                       had up to 50 projects to oversee – limiting their ability to
                       effectively monitor performance. In another case, certain
                       projects related to energy research were funded even
                       though program officials did not always know what the
                       projects would cost or the scope of the effort.

                       Our reviews have also established that program officials
                       did not always take action to mitigate performance-related
                       risks through effective monitoring of grants and
                       cooperative agreements. For instance, officials did not
                       adequately monitor a fuel-cell development project and
                       continued to fund the effort through a cooperative
                       agreement even though the business partner determined
                       that the market no longer supported the need for the end-
                       product. In addition, recipients of awards were not always
                       monitored to determine whether significant costs were
                       properly supported. In certain particularly troubling cases,
                       officials had not ensured that funds were used for their
                       intended purpose. For example, reviews and investigations
                       revealed that Federal funds had been inappropriately used
                       to expand a golf course, improve city-owned water supply
                       systems, and procure personal luxury items – purchases for
                       purposes outside the scope of the financial assistance
                       agreement.

                       A recently released report by the National Procurement
                       Fraud Task Force, which includes the U.S. Department of
                       Justice, the Federal Bureau of Investigation and many
                       Offices of Inspector General, has highlighted risks that
                       grant awarding agencies often focused only on awarding
                       the grant money and did not devote sufficient resources to
                       the oversight of how those funds were spent. Members of
________________________________________________________________
Page 5                                          Identified Risk Areas
                       the Task Force noted that some potential fraudulent acts
                       that may be encountered are the use of grant funds for
                       unrelated work, misrepresenting progress made for work
                       funded by the grant, and falsification of data submitted by
                       the grantee. Indeed, our investigative work is consistent
                       with Task Force findings. We have, for instance, identified
                       grantees that received Federal monies from multiple
                       agencies for the same work and used Department funds for
                       expenses outside the scope of the grant.

                       To prepare for the vast increase in projects funded through
                       grants and cooperative agreements, and to address the risks
                       we have previously identified, the Department should take
                       steps to:

                          •   Develop aggressive safeguards to ensure that
                              financial and business risks are adequately assessed
                              and addressed prior to initial award and that
                              performance is monitored throughout the life-cycle;

                          •   Maintain Federal project manager-to-financial
                              assistance awards ratios as necessary to ensure that
                              projects receive adequate monitoring and oversight;
                              and,

                          •   Adjust project management techniques to ensure the
                              transparency of project data and ensure that specific
                              OMB and Recovery Act monitoring and reporting
                              requirements are met.

                       Controls such as these are essential to ensuring that the
                       massive surge in funds to be distributed through grants and
                       cooperative agreements is adequately controlled and
                       monitored. Based on current plans, these funding
                       mechanisms are to form a significant part of Recovery Act
                       outlays and are therefore likely to be critical to achieving
                       desired economic stimulus.

                                          Contract Management

                       The Department uses contracts, including numerous
                       subcontracts, as the primary mechanism for accomplishing
                       its mission. In particular, about 90 percent of the
                       Department's workforce is made up of contractor
                       personnel. Similar to its normal mission activities, the
                       Department anticipates that a significant portion of the
                       work to be completed using Recovery Act funds will be
________________________________________________________________
Page 6                                          Identified Risk Areas
                       done through new and existing contracts. As has been
                       consistently demonstrated by the OIG and other
                       government oversight organizations, contract management
                       weaknesses across the Department represent a risk that, if
                       not mitigated, is likely to increase the potential for fraud,
                       waste, and abuse of Recovery Act funds.

                       Projects not achieving their intended objectives within
                       estimated cost, scope, and schedule has been a recurring
                       problem or theme across the complex. On many occasions
                       over the past five years, we have identified various projects
                       that significantly exceeded their initial scope and cost
                       estimates and were not completed on time. A number of
                       these projects were in areas that are now projected to
                       receive substantial Recovery Act funds, particularly
                       environmental cleanup and waste management.

                       Specific weaknesses we identified involved incomplete
                       project planning, inadequate performance metrics,
                       insufficient contracting and monitoring staff, and
                       ineffective change control processes. Performance-based
                       incentive fees were also not always adequately managed.
                       As a result, we found one instance where a contractor
                       received incentive awards for work that could not be
                       completed and another where incentive fees were
                       disproportionately high for the work performed. The
                       majority of the problems we discovered could have been
                       mitigated by effective Federal contract oversight and
                       project management. In addition, we noted that a
                       comprehensive and effective risk management strategy
                       could have helped organizations identify and mitigate risks
                       that lead to issues such as cost increases and schedule
                       delays.

                       The risk that contractors, including sub-contractors, claim
                       and receive payments for unallowable costs could also
                       increase as the Department expands its contracting
                       activities under the Recovery Act. Our review of work in
                       this area has demonstrated that these issues are recurring
                       problems across many of the Department's sites and
                       programs. In one recent report, for example, we disclosed
                       that a support service contractor at a national laboratory
                       received payments that were questionable, inappropriate,
                       excessive, or unsupported. At least one investigation
                       resulted in multiple criminal convictions for employees of a
                       Department contractor who carried out a scheme to submit
                       fictitious bills for reimbursement and launder money
________________________________________________________________
Page 7                                          Identified Risk Areas
                       through related companies. In addition, our annual reviews
                       of contractor-claimed costs routinely identify questionable
                       costs that may be unallowable.

                       As we also recently noted in our report on Management
                       Challenges at the Department of Energy (DOE/IG-0808,
                       December 2008), contract administration remains a
                       significant vulnerability. The Government Accountability
                       Office (GAO) recognized progress made by certain
                       Department programs relating to contract management,
                       including both contract administration and project
                       management. In its January 2009 High-Risk Series report,
                       GAO noted, however, that two major programs continue to
                       be at high risk for fraud, waste, abuse, and
                       mismanagement. In response to contracting weaknesses,
                       the Department indicated that it has taken numerous
                       corrective actions and developed an action plan to address
                       remaining problems.

                       As part of ongoing efforts to improve its contract
                       management activities, and as it develops a Recovery Act
                       risk mitigation plan, we suggest that the Department take
                       steps to:

                          •   Implement effective contract and project
                              management practices to better manage scope, cost,
                              and schedule of new and existing contracts;

                          •   Establish performance metrics to effectively
                              measure contractor progress and results;

                          •   Ensure that performance-based incentive fees are
                              appropriate; and,

                          •   Evaluate contract costs, as needed, to determine
                              whether they are reasonable, allowable, and
                              allocable.

                       The actions described above should help prepare the
                       Department to address the contracting associated risks
                       anticipated with increased Recovery Act funding.

                                    Direct Loans and Loan Guarantees

                       Based on the Recovery Act and previously authorized
                       programs, the Department has been authorized to make or
                       guarantee loans totaling up to $127.5 billion for a variety of
________________________________________________________________
Page 8                                          Identified Risk Areas
                       energy related purposes. The Department is responsible for
                       soliciting and evaluating loan applications, approving loan
                       guarantees, and monitoring project and loan guarantee
                       performance. While this program carries with it many
                       potential economic and energy related rewards when
                       projects meet their objectives, both the OIG and the GAO
                       have noted that there are a number of risks associated with
                       administering the program.

                       The Department has been engaged in significant
                       preparatory work developing policies and procedures to
                       mitigate risks associated with loan activities. Based on an
                       analysis of similar loan guarantee programs administered
                       by other Federal agencies, we have reported on several
                       risks that the Department should consider as it moves
                       forward. Specifically, in 2007, we identified risks
                       associated with adequately evaluating loan proposals and
                       borrowers' ability to repay, monitoring project
                       performance, and acting appropriately to protect the
                       Government's interest in the case of defaults. Federal
                       agencies' experience in such programs has also shown that
                       there is a risk that participating lenders do not always
                       comply with established monitoring procedures. The
                       Department may also be vulnerable to this risk because, for
                       example, it is proposing that lenders participating in loan
                       guarantees provide monitoring services.

                       Another critical element we have reported on several
                       occasions relates to whether the loan program is adequately
                       staffed. In 2007, we initially noted that our discussions
                       with Federal agencies showed that a capable and proficient
                       staff is an essential element to establishing an effective loan
                       program and minimizing costly mistakes. More recently, in
                       2009, we observed that the Department did not have
                       adequate staff to administer its loan program. Although the
                       Department had finalized its policies and procedures, the
                       lack of adequate staffing presents a significant risk to the
                       Department in effectively administering this nationally and
                       economically important program.

                       Accordingly, to help ensure that its loan programs are
                       successful, we suggest that the Department:

                          •   Ensure adequate staff are available to implement the
                              loan programs; and,



________________________________________________________________
Page 9                                          Identified Risk Areas
                          •   Effectively evaluate loan proposals and borrowers'
                              ability to repay, monitor projects to identify early
                              warning signs of performance problems, and act
                              appropriately to protect the taxpayers' interests in
                              the event of loan guarantee defaults.

                       By mitigating risks inherent in its loan programs, the
                       Department may be able to minimize the overall cost of the
                       program to the taxpayers and improve the timeliness of its
                       loan application evaluations, approvals and disbursements.

Department of Energy   To prepare for the unprecedented levels of additional
Response to            funding that many of its programs will receive as a result
Recovery Act           of the Recovery Act, the Department has initiated action to
                       address the challenges associated with meeting
                       transparency and accountability requirements. Officials
                       commented that they have taken corrective actions related
                       to many of the findings identified in previous audits and
                       were working to implement additional actions. After
                       reviewing a draft of our report, management also
                       acknowledged that it was important to re-evaluate potential
                       risks associated with past reports at sites other than those
                       included in the initial reviews and in light of the significant
                       additional funding provided under the Recovery Act.

                       Based on our preliminary meetings and information
                       obtained from the Department, we learned that some of the
                       specific actions that management is in the process of taking
                       include:

                          •   Identifying risks that the Department, and its
                              programs in particular, may encounter as they
                              prepare to fulfill their obligations under the
                              Recovery Act;

                          •   Developing risk mitigation strategies;

                          •   Preparing spending plans that emphasized timely
                              obligation of funds;

                          •   Performing outreach to potential fund recipients to
                              emphasize their responsibilities for transparency
                              and accountability for the funds with which they are
                              entrusted;



________________________________________________________________
Page 10                 Department of Energy Response to Recovery Act
                            •   Developing standardized language for grant and
                                contract recipients to meet the objectives of the
                                Recovery Act;

                            •   Creating program and project-level implementation
                                plans detailing risk mitigation strategies, internal
                                controls, performance measures, and methods for
                                the collection and reporting of data; and,

                            •   Ensuring that Headquarters and field managers
                                certify that they recognize responsibility for
                                accountability and internal controls over their
                                respective programs.

                         As an example of its efforts, the Office of Environmental
                         Management recently brought together its field office
                         managers and representatives from its major contractors to
                         emphasize their responsibilities for transparency and
                         accountability in the expenditure of Recovery Act funds.
                         In addition, the Chief Financial Officer is leading Recovery
                         Act accountability efforts and is working with each of the
                         program offices to identify risks, develop related mitigation
                         strategies, and implement performance reporting
                         requirements. Program officials also told us that they are
                         developing alternative means to mitigate recognized risks
                         such as staffing shortages by hiring term and contractor
                         employees and making procedural changes to their
                         programs.

Office of Inspector      The overarching goal of our oversight strategy is to ensure
General Recovery Act     that the taxpayers' interests are protected. As specified by
Oversight Strategy       the Recovery Act, the OIG will provide oversight critical to
                         economic recovery. In particular, we have adopted a risk-
                         based review and investigative strategy that is consistent
                         with OMB accountability objectives. As part of that
                         strategy, the OIG has developed a Ten-Point Program that
                         includes, among other things, evaluations of internal
                         controls over funds management, whistleblower protection
                         programs, and fraud awareness activities.

                         We have produced a risk-based approach to oversee issues
                         relevant to Recovery Act funding. Oversight will occur
                         through a multi-faceted approach, including the following
                         activities:




________________________________________________________________
Page 11          Office of Inspector General Recovery Act Oversight Strategy
                            •   Initially concentrating on reviewing the
                                Department's internal control structure and
                                management of programs exceeding $500 million;

                            •   Examining the efficiency and effectiveness of funds
                                distribution by the Department to state and local
                                governments;

                            •   Examining the use of funds, through transaction
                                testing, by contractors, subcontractors, and financial
                                assistance recipients;

                            •   Reviewing Department developed metrics that are
                                intended to gauge program success;

                            •   Assessing program performance and outcomes by
                                comparing actual results to metrics on a real-time
                                basis;

                            •   Providing fraud awareness briefings throughout the
                                Department;

                            •   Refining existing relationships with state and local
                                law enforcement, geared to aggressively pursuing
                                fraudulent activities;

                            •   Expanding and enhancing Hotline capabilities to
                                respond to allegations of fraud, waste, and abuse;
                                and,

                            •   Expanding whistleblower protection programs and
                                complaint evaluations.

                         In addition, the Inspector General will serve as a member
                         on the Recovery Act Accountability and Transparency
                         Board, an organization established by the Recovery Act to
                         coordinate government-wide oversight.

                         As we execute our program, we expect there to be a
                         significant increase in reviews, investigations, and
                         whistleblower and Hotline complaints. Based on prior
                         experience, we are anticipating an additional 500 Hotline
                         complaints, 200 criminal investigations, and 30 to 35
                         retaliation complaints each year. We also anticipate
                         additional reviews of how the Department, its contractors,
                         and other recipients account for and use Recovery Act
                         funds. To help ensure success, the OIG plans to realign


________________________________________________________________
Page 12          Office of Inspector General Recovery Act Oversight Strategy
                      existing employees and increase overall staffing to
                      facilitate additional reviews, investigations, and
                      whistleblower protection and complaint evaluations.

                      While many activities to oversee Recovery Act funds are in
                      their planning stage, numerous other actions are already
                      underway. For example, several reviews that address the
                      adequacy of controls over programs that are likely to be the
                      primary vehicles for distributing funds are currently in
                      progress. Similarly, we have adjusted our annual risk
                      assessment process to identify the highest risk stimulus-
                      related areas within the Department, including those in the
                      energy, environmental, and science programs. We have
                      also coordinated our efforts with the GAO and plan to work
                      closely with state and local oversight organizations to make
                      the most efficient use of oversight resources. Finally,
                      under the Department's Cooperative Audit Strategy with
                      management and operating contractors, we recently issued
                      supplemental planning guidance for the contractors'
                      internal auditors to incorporate Recovery Act objectives in
                      their annual audit plans.

Potential Impacts     The Department will undoubtedly encounter various
                      challenges while attempting to provide adequate
                      accountability and transparency of its activities designed to
                      meet the objectives of the Recovery Act. Although many
                      of these challenges will require significant efforts on the
                      part of Departmental programs, by aggressively addressing
                      known problem areas early, the ability to mitigate the risks
                      identified in this report may be greatly enhanced.

                      However, inaction may hamper the Department's ability to
                      achieve the objectives set forth in the Recovery Act and
                      related implementing guidance issued by OMB. For
                      instance, absent effective tracking of costs and reporting of
                      program progress, stimulus activities may lose credibility
                      with and support of taxpayers. Additionally, failing to
                      address known weaknesses related to the management of
                      contracts and financial assistance tools such as grants and
                      cooperative agreements may result in projects that exceed
                      estimated costs, take longer than necessary to complete,
                      and ultimately do not meet their intended objectives.

                      In addition to our reviews, external organizations such as
                      the GAO, the National Academy of Public Administration,
                      and the National Procurement Fraud Task Force have also
                      urged implementation of effective controls over the same or

________________________________________________________________
Page 13                                           Potential Impacts
                      similar areas identified by our previous body of work (See
                      Appendix 2). In particular, the GAO disclosed that the
                      Department could encounter significant financial risks
                      without an effective loan guarantee program. Furthermore,
                      the National Procurement Fraud Task Force recently issued
                      a guide to preventing and detecting grant related fraud and
                      noted that a significant amount of Federal dollars are lost
                      each year to grant fraud.




________________________________________________________________
Page 14                                           Potential Impacts
Appendix 1

          OFFICE OF INSPECTOR GENERAL REPORTS BY RISK AREA


    REPORT                        KEY FINDINGS                          DEMONSTRATED RISKS

                       Funding Accountability and Reporting
                   The program was at risk of not achieving the
                   first production unit within the established         • Program goals not achieved
 W76 Life          scope, schedule, and cost parameters.                • Use of funds not
 Extension         Problems occurred because the W76 project              transparent
 Project           plan was not completed until more than five          • Project delays and/or cost
 (DOE/IG-0729,     years after the project began. Individual site         overruns
 May 2006)         schedules were also not consistent with the
                   overall master schedule. Further, reasons for
                   changes to the project's baseline were not
                   documented.

                   The Department did not always ensure that
                   reimbursements to contractors were limited to        • Unauthorized use of funds
 Department of     an equitable share of their home office              • Use of funds not
 Energy            expenses. They agreed to pay for home                  transparent
 Contractor        office expenses that were duplicative, not
 Home Office       adequately documented, improperly
 Expenses          calculated, and unallowable. This occurred
 (DOE/IG-0676,     because contracting officials did not
 February          adequately review contractor cost proposals,
 2005)             nor did they require the contractor to report
                   actual incurred expenses.

                   Over 60% of the funding provided through a
                   cooperative agreement for the restoration and        • Use of funds not
                   long-term maintenance of the Site was spent            transparent
 Restoration of
                   on non-Site related projects such as golf            • Unauthorized use of funds
 the Monticello
                   course expansion and public water supply             • Project delays and/or cost
                   system improvements, for which the                     overruns
 Mill Site at
 Monticello,
                   Government received no direct benefit. This          • Program goals not achieved
                   occurred because the Department had not
 Utah
                   properly structured and did not require
 (DOE/IG-0665,
                   compliance with certain terms of the
 October 2004)
                   cooperative agreement. Additionally, the city
                   inter-mingled the Departmental funds with its
                   General Fund.

                   A Department contractor utilized funds
 Idaho National    specifically set aside for marketing mission         • Unauthorized use of funds
 Engineering       development opportunities for questionable           • Program goals not achieved
 and               purposes, such as supplementing their                • Use of funds not
 Environmental     Laboratory Directed Research and                       transparent
 Laboratory's      Development program and paying for
 Strategic         program office activities; and for activities that
 Initiative Fund   did not directly support the laboratory's
 (DOE/IG-0601,     primary mission. This occurred because, in
 May 2003)         the absence of Department policy or clear
                   contractual requirements, the contractor

________________________________________________________________
Page 15                   Office of Inspector General Reports by Risk Area
Appendix 1

    REPORT                       KEY FINDINGS                       DEMONSTRATED RISKS
                   established its own very broad informal
                   guidelines to manage the fund.

                   Departmental funds provided to the State of
                   Nevada for oversight of the Yucca Mountain       • Unauthorized use of funds
                   Project were used for prohibited activities      • Program goals not achieved
                   such as hiring non-oversight lobbyists and       • Use of funds not
                   attorneys, sponsoring anti-Yucca Mountain          transparent
 Oversight
                   Project events, and purchasing supplies,
 Funds
                   materials, and services for their own
 Provided to
                   operations. Interest earned from these funds
 Local
                   was also retained instead of reinvested as
 Governments
                   required. The responsible program office did
 in the State of
                   not sufficiently monitor the use of oversight
 Nevada
                   funds received by the state because it had
 (DOE/IG-0600,
                   not ensured that program plans were
 May 2003)
                   completed before providing the funding.
                   Additionally, funds were not provided based
                   on actual expenditures nor was the
                   allowability of expenditures reviewed.



      Awarding and Monitoring Grants and Cooperative Agreements
 Management        The Department was not closing out SBIR II
 Controls over     grants in a timely manner, with many grants      • Use of funds not
 Monitoring        remaining open over three years after the          transparent
 and Closeout      completion of the grant term. This occurred      • Unauthorized use of funds
 of Small          because problems with insufficient staffing      • Project delays and/or cost
 Business          and resources required them to focus their         overruns
 Innovation        attention on active awards rather than grant     • Program goals not achieved
 Research          close out.
 Phase II
 Grants
 (OAS-M-08-09,
 July 2008)

                   The Department did not regularly perform on-
                   site monitoring of State Energy Offices to       • Unauthorized use of funds
                   ensure that grant funds were being used for      • Program goals not achieved
                   their intended purpose and had not
 Management        established or collected meaningful
 Controls over     performance metrics to determine the
 the State         cost/benefit of the Program in meeting its
 Energy            goals. Additionally, while consolidating their
 Program's         six regional offices at the National Energy
 Formula           Technology Laboratory and the Golden Field
 Grants            Office, Energy Efficiency and Renewable
 (OAS-M-06-05,     Energy had not specified how it would assign
 April 2006)       responsibility for or staff the program
                   monitoring function within these entities.




________________________________________________________________
Page 16                   Office of Inspector General Reports by Risk Area
Appendix 1

    REPORT                      KEY FINDINGS                       DEMONSTRATED RISKS
                  Issues reported with cooperative agreements,
                  due in part to uncorrected previously            • Project delays and/or cost
                  identified issues and a lack of Federal            overruns
                  monitoring and oversight, included the           • Program goals not achieved
                  following:

                      •   Not subjected to sufficiently detailed
 Management               pre-award analysis;
 of Fossil            •   Projects not always adequately
 Energy                   defined prior to award;
 Cooperative          •   Lack of risk management plans;
 Agreements           •   Funds obligated prior to making a
 (DOE/IG-0692,            decision to proceed;
 July 2005)           •   No cost analysis for scope reduction
                          without funding decrease;
                      •   Some required technical and financial
                          reports waived by Department
                          officials; and,
                      •   No prior performance review of
                          potential awardees before award.

                  Federal project managers either had not
                  completed or did not document technical and      • Use of funds not
                  merit reviews of the projects. They also had       transparent
 Selected         not performed required site visits, and in       • Unauthorized use of funds
 Energy           some cases were unfamiliar with the nature       • Project delays and/or cost
 Efficiency and   and progress of the agreements for which           overruns
 Renewable        they were responsible. These problems            • Program goals not achieved
 Energy           occurred because the Department did not
 Projects         devote sufficient attention or resources to
 (DOE/IG-0689,    managing its cooperative agreements.
 May 2005)        Project management officials were
                  responsible for monitoring up to 50 projects
                  simultaneously.

                  The Department did not always ensure that
                  this Congressionally directed project was        • Use of funds not
 Management       accomplishing its goals or that reimbursed         transparent
 Controls over    costs were appropriate, because officials        • Unauthorized use of funds
 Administration   were not substantially involved in monitoring    • Program goals not achieved
 of the WERC      the project. Specifically, they were not
 Project          always aware of project activities and
 (OAS-M-04-03,    accepted documents for planning, budgeting,
 May 2004)        and expenditures that lacked the amount of
                  detail needed for monitoring.

                  We found that the Department continued to
 The McNeil       provide financial assistance to the project      • Project delays and/or cost
 Biomass          even though there was little or no progress in     overruns
 Project          meeting annual programmatic performance          • Program goals not achieved
 (DOE/IG-0630,    objectives because program managers did
 December         not devote adequate attention to monitoring
 2003)            progress against project milestones.


________________________________________________________________
Page 17                   Office of Inspector General Reports by Risk Area
Appendix 1

    REPORT                      KEY FINDINGS                       DEMONSTRATED RISKS
 Inspection of    The Department was not adequately
 Savannah         managing grants to Georgia and South             • Project delays and/or cost
 River            Carolina and did not have documentation to         overruns
 Operations       support whether or not the grant recipients      • Program goals not achieved
 Office           were on schedule and meeting milestones.
 Management       Specifically, the Department was not
 of Emergency     receiving many of the required deliverables
 Response and     and was also not following up on the
 Law              delinquent deliverables. Furthermore, there
 Enforcement-     was not a formal system in place for tracking
 Related          grant deliverables.
 Grants
 (DOE/IG-0604,
 June 2003)



                                 Contract Management
                  Contract transition costs and activities were
 Contract
                  not fully effective in safeguarding Federal      • Unauthorized use of funds
 Transition
 Activities at
                  records and ensuring contract terms and          • Program goals not achieved
                  Federal regulations were followed.
 the Nevada
                  Specifically, employee concern records were
 Test Site
                  not retained due to confusion regarding
 (OAS-M-08-02,
                  contractual requirements, and questionable
 November
                  relocation costs were incurred.
 2007)
 Work Order       The actual costs for Los Alamos National
 Estimate and     Laboratory's support services contractor         • Use of funds not transparent
 Cost Issues      exceeded estimated costs by more than 20%        • Unauthorized use of funds
 for Site         for work order tasks over 75% of the time. In    • Program goals not achieved
 Support          addition, questionable labor and material
 Services         charges were also found related to this
 at Los Alamos    contractor. These issues occurred due to
 National         internal control weaknesses associated with
 Laboratory       the laboratory's work control system.
 (DOE/IG-0780,
 October 2007)

                  The Department's limited financial resources
 Performance-
                  were applied to incentivize environmental        • Use of funds not
 Based
                  cleanup end-states that were not readily           transparent
 Contract
 Incentives at
                  attainable and fees were paid for work that      • Program goals not achieved
                  could not be completed. This occurred
 the Hanford
                  because the performance-based contract
 Site
                  incentives that they developed were not
 (DOE/IG-0739,
                  realistic, achievable or adaptable to changing
 September
                  circumstances.
 2006)
 Management       A number of the Department's performance
 Controls over    fees were disproportionately high for the work   • Program goals not achieved
 Performance      performed and/or were implemented well           • Unauthorized use of funds
 Fees in the      after the associated performance period
 Idaho National   began. This resulted from a lack of balance


________________________________________________________________
Page 18                   Office of Inspector General Reports by Risk Area
Appendix 1

    REPORT                       KEY FINDINGS                         DEMONSTRATED RISKS
 Laboratory        between achieving programmatic priorities
 Contract          and the difficulty level of performing the work,
 (OAS-M-06-07,     as well as ineffective communication between
 August 2006)      Headquarters and Field officials regarding
                   their respective expectations.

 Follow-up         Cost increases, schedule delays, pending
 Audit Report      milestones that appear unlikely to be met,         • Project delays and/or cost
 on the            and requested reductions in contract                 overruns
 Department of     requirements have all been issues related to       • Program goals not achieved
 Energy's          the project. While additional work scope was
 Performance       the primary driver for these issues, we found
 of the            that the Department had not adequately
 Miamisburg        planned for uncertainties that it was aware of
 Closure           before and after awarding the current
 Project           contract, including employee pension costs
 (DOE/IG-0721,     and soil volumes requiring remediation.
 March 2006)

 Report on         The Laboratories did not always ensure that
 Management        audits were conducted, questioned costs            • Use of funds not
 Controls Over     were resolved, and completed subcontracts            transparent
 Subcontract       were closed in a timely manner, because they       • Unauthorized use of funds
 Administration    lacked appropriate controls and adequate
 at the National   staffing, and because the National Nuclear
 Security          Security Administration had not developed
 Laboratories      specific performance measures related to
 (OAS-M-04-06,     subcontract administration.
 August 2004)

                   Problems existed with the National
                   Renewable Energy Laboratory's procurement          • Use of funds not
                   cycle, such as (1) subcontractor acquired            transparent
 Management
 Controls Over
                   property that could not be located, (2)            • Unauthorized use of funds
 Subcontract
                   experimental property not included in              • Program goals not achieved
                   inventories, and (3) failure to de-obligate
 Administration
                   unexpended funds or recover property
 by the
                   associated with completed or expired
 National
                   contracts. These issues occurred because
 Renewable
                   the laboratory did not follow Departmental
 Energy
                   regulations on accounting for property,
 Laboratory
                   inventory requirements, and coordination with
 (OAS-M-04-02,
                   subcontractors. In addition, a focused
 March 2004)
                   performance measure for contract closeout
                   had not been developed.



                          Direct Loans and Loan Guarantees
 The               The Department's Loan Guarantee Program
 Department of     was understaffed by as many as 21                  • Funds not provided in a
 Energy's Loan     employees for it normal workload in fiscal           timely, fair, or reasonable
 Guarantee         year 2009. This staffing limitation led              manner
 Program for       management to focus resources on issuing           • Program goals not achieved


________________________________________________________________
Page 19                   Office of Inspector General Reports by Risk Area
Appendix 1

    REPORT                     KEY FINDINGS                       DEMONSTRATED RISKS
 Innovative       new solicitations at the expense of
 Energy           completing additional key controls to ensure
 Technologies     that the program was well managed and that
 (DOE/IG-0812,    objectives were accomplished.
 February
 2009)


 Loan             While the Department was implementing the       • Funds not provided in a
 Guarantees       Loan Guarantee Program, this report               timely, fair, or reasonable
 for Innovative   highlighted some lessons learned from past        manner
 Energy           experience that should have helped foster the   • Program goals not achieved
 Technologies     program's success. Specific areas covered
 (DOE/IG-0777,    included program staffing, risk management,
 September        monitoring strategy, and liquidation.
 2007)




________________________________________________________________
Page 20                   Office of Inspector General Reports by Risk Area
Appendix 2

                     PRIOR EXTERNAL REPORTS BY RISK AREA

    REPORT                       KEY FINDINGS                           DEMONSTRATED RISKS

                          Government Accountability Office
                   GAO’s bimonthly reviews of selected states
American           and localities will examine how Recovery Act       • Use of funds not transparent
Recovery and       funds are being used and whether they are          • Unauthorized use of funds
Reinvestment       achieving the stated purposes of the Act.          • Project delays and/or cost
Act – GAO's        Lessons learned and best practices noted in          overruns
Role in Helping    the report which can be helpful in addressing      • Program goals not achieved
to Ensure          challenges to implementing the Recovery Act
Accountability     include fraud prevention, contract
and                management, and grants accountability. It
Transparency       presented specific practices in each area that
(GAO-09-453T,      should help ensure the accountability and
March 2009)        transparency over the use of Recovery Act
                   funds.

                   The cost increases and schedule delays for
                   most of the projects GAO reviewed occurred         • Use of funds not transparent
Contract and
Project
                   as a result of inconsistent application of         • Unauthorized use of funds
Management
                   project management tools and techniques on         • Project delays and/or cost
                   the part of both the Department and its              overruns
Concerns at the
National Nuclear
                   contractors. Preliminary results from their        • Program goals not achieved
                   review of a current National Nuclear Security
Security
                   Administration project indicate that project
Administration
                   management concerns continue. Specifically,
and Office of
                   officials had not conducted a risk analysis on
Environmental
                   their current schedule using statistical
Management
                   techniques, and therefore could not
(GAO-09-406T,
                   adequately state their level of confidence in
March 2009)
                   meeting the project’s completion date.

                   This was GAO’s presentation on the status of
                   the 30 areas across the Federal government         • Use of funds not transparent
                   that it has designated as high-risk. GAO           • Project delays and/or cost
                   recognized progress in resolving certain             overruns
High-Risk Series
                   issues, but noted that contract management         • Program goals not achieved
                   was still considered a high risk area. GAO
– An Update
                   specifically found that 9 of 12 major
(GAO-09-271,
                   construction projects, with total costs of about
January 2009).
                   $27 billion, exceeded original cost or schedule
                   estimates, principally because of ineffective
                   project oversight and poor contractor
                   management by the Department.

New Loan           GAO reported that the Department is not well
Guarantee          positioned to manage the loan guarantee            • Funds not provided in a timely,
Program Should     program effectively and maintain                     fair, or reasonable manner
Complete           accountability because it has not completed a      • Program goals not achieved
Activities         number of key management and internal
Necessary for      control activities. As a result, the Department
Effective and      may not be able to process applications


___________________________________________________________________
Page 21                                Prior External Reports by Risk Area
Appendix 2

    REPORT                        KEY FINDINGS                         DEMONSTRATED RISKS
Accountable        efficiently and effectively, although it has
Program            begun to do so. They stated that the
Management         Department had not sufficiently determined
(GAO-08-750,       the resources it will need or completed
July 2008)         detailed policies, criteria, and procedures for
                   evaluating applications, identifying eligible
                   lenders, monitoring loans and lenders,
                   estimating program costs, or accounting for
                   the program.



                    National Academy of Public Administration
                   This report provides an assessment of the
                   2002 reorganization of the Department’s           • Funds not provided in a timely,
                   Office of Energy Efficiency and Renewable           fair, or reasonable manner
Office of Energy   Energy. The report included a number of           • Project delays and/or cost
Efficiency and     forward-looking recommendations, such as            overruns
Renewable          developing indicators of program                  • Program goals not achieved
Energy:            management performance and effectiveness
Reorganizing for   to assess the results of the reorganization,
Results            creating mechanisms to hold staff
(September         accountable for new processes and
2004)              procedures, and obtaining independent
                   outside expertise to evaluate certain elements
                   of its acquisition/financial assistance and
                   project management operations.



                      National Procurement Fraud Task Force
                   The report recognized that a large part of
                   Government dollars lost to fraud, waste, and      • Use of funds not transparent
                   abuse includes dollars lost to grant fraud, and   • Unauthorized use of funds
                   prepared this White Paper to discuss              • Project delays and/or cost
                   recommendations for agencies to consider in         overruns
                   preventing and detecting fraud, waste, and        • Program goals not achieved
                   abuse in the grants they administer. The
A Guide to Grant   Task Force recommended the following:
Oversight and
Best Practices     • Require the grantee to certify that its grant
for Combating        application statements are true and correct;
Grant Fraud
                   • Provide grant fraud training;
(February 2009)
                   • Maintain regular communication;
                   • Take steps in the grants they award to
                     create transparency;
                   • Share information within and between
                     agencies; and,
                   • Provide active oversight and monitoring of
                     the grantee by both grant administrators
                     and the Office of Inspector General.




___________________________________________________________________
Page 22                                Prior External Reports by Risk Area
                                                          IG Report No. OAS-RA-09-01

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations



If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
